                                                              O FFICE OF A UDIT S ERVICES , R EGION V
                                                                  233 N ORTH M ICHIGAN , S UITE 1360
                                                                                 C HICAGO , IL 60601



March 12, 2012

Report Number: A-05-11-00107

Ms. Mindy Smith
Vice President
Clinics, Outpatient Services & Development
HealthEast St. John’s Hospital
1575 Beam Avenue
Maplewood, MN 55109

Dear Ms. Smith:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled St. John’s Hospital Reported Costs for Outpatient Services
on its FY 2010 Medicare Cost Report that Complied with Federal Requirements. We will
forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-05-11-00107 in all correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Mindy Smith

Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee For Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF 

        INSPECTOR GENERAL 





      ST. JOHN’S HOSPITAL

 REPORTED COSTS FOR OUTPATIENT 

SERVICES ON ITS FY 2010 MEDICARE 

COST REPORT THAT COMPLIED WITH 

     FEDERAL REQUIREMENTS





                         Daniel R. Levinson

                          Inspector General 


                            March 2012 

                           A-05-11-00107 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                       INTRODUCTION 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance coverage to people aged 65 or older, people with disabilities, and people with
end-stage renal disease.  The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

Medicare pays for services that physicians provide to program beneficiaries on an outpatient
basis. These outpatient services, also known as ambulatory services, can be provided in medical
facilities such as hospital outpatient departments or ambulatory surgical centers (ASC). As
departments of a Medicare certified hospital, costs for these facilities must be reported on a
hospital’s Medicare cost report.

Reporting of Costs on the Medicare Cost Report

Pursuant to Section 100 of the Medicare Provider Reimbursement Manual (the Manual), CMS
requires Medicare hospitals to submit cost reports annually in compliance with Federal cost
reporting regulations. Pursuant to Section 2810 of the Manual, CMS requires hospitals to make
adjustments and remove all costs not related to patient care, as well as costs related to luxury
items or services because these costs are not allowable for Medicare purposes. Pursuant to the
Manual these unallowable costs should be removed from the appropriate lines of the hospital’s
cost report.

Pursuant to Section 2807 of the Manual, lines 1 through 24 of the Medicare cost report represent
general service costs such as housekeeping, dietary, and maintenance. Lines 25 and beyond
represent costs from revenue-producing departments and include allocations from general service
costs. Hospitals report costs from outpatient or ambulatory service departments within these
lines. Specifically, line 58 is reserved for “ASC non-distinct part” costs. As stated in Section
2807, line 58 identifies costs of an ambulatory surgical center that is not Medicare certified as a
distinct entity (non-distinct part) but which has a separate surgical suite.

Federal Requirements

Pursuant to 42 CFR 413.24(a), providers must submit adequate cost data based on a provider's
“…financial and statistical records which must be capable of verification by qualified auditors.”
Providers must base cost data on “…an approved method of cost finding and on the accrual basis
of accounting.” Pursuant to 1861(v)(1)(A) of the Act, the “reasonable cost of any services shall
be the cost actually incurred, excluding therefrom any part of incurred cost found to be
unnecessary in the efficient delivery of needed health services.”

St. John's Hospital

St. John’s Hospital (St. John’s) is a Medicare certified hospital located in Maplewood,
Minnesota. St. John’s maintains Midway Surgery Center, an ambulatory surgical center not

                                                1

Medicare certified as a distinct entity but has a separate surgical facility in St. Paul, Minnesota.
The costs associated with Midway Surgery Center are reported on line 58 of St. John’s Medicare
cost report.

St. John’s Hospital submitted a Medicare cost report totaling $205,830,178 for fiscal year (FY)
2010. For line 58, ASC non-distinct part, St. John’s reported total cost of $3,912,120.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether St. John’s reported costs for outpatient services on line
58 of its FY 2010 Medicare cost report that complied with Federal requirements.

Scope

We reviewed costs totaling $3,912,120 reported on line 58, ASC non-distinct part, of St. John’s
FY 2010 cost report. These costs also included St. John’s general services costs that were
allocated to line 58.

We limited our internal control review to St. John’s policies, procedures, and controls over cost
reporting on the Medicare cost report for FY 2010.

We performed fieldwork at the Midway Surgery Center located in St. Paul, Minnesota.

Methodology

To accomplish our objective, we:

   	 reviewed applicable Federal laws, regulations, and guidelines;

   	 reviewed St. John’s policies and procedures related to reporting Medicare expenses on its
      cost report;

   	 interviewed St. John’s officials to identify and understand policies and procedures for
      completing the Medicare cost report;

   	 reconciled the cost reports to supporting documentation and accountings records for FY
      2010; and

   	 traced judgmentally selected transactions totaling $438,385 from the FY 2010 Medicare
      cost report to source documentation.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

                                                 2

based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

Based on our review, we determined that the costs for outpatient services reported on line 58 of
St. John’s FY 2010 Medicare cost report complied with Federal requirements.




                                                3

